RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS;
VISHNUKUMAR THUMATI, individually and as parent and next friend of P.T. and
N.T.; and SHAILESH SHILWANT, individually and as parent and next friend of P.S.
and P.S.S.,
Petitioners,
v.
TOM TORLAKSON, in his official capacity as State Superintendent of Public
Instruction and Director of Education for the California Department of Education,
et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 6,824 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 16, 2021.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

